HHS/OIG - Audit,"Review of Medicaid Support for Graduate Medical Education in the
State of Michigan,"(A-05-05-00018)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Support for Graduate Medical
Education in the State of Michigan," (A-05-05-00018)
February 27, 2006
Complete
Text of Report is available in PDF format (275 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether (1) Michigan followed the approved State plan in
administering the Medicaid graduate medical education program and (2) intergovernmental transfers
included any program funds.  We found that contrary to the State plan, Michigan used
$1.7 million ($955,060 Federal share) in graduate medical education funds for other Medicaid
services.  Also, rather than making the required semimonthly payments, the State paid
the majority of the total funds during the first 32 days of the fiscal year.  In addition,
the State did not ensure that hospitals accounted for their use of funds by submitting required
annual reports.  Concerning our second objective, we found that intergovernmental transfers
did not involve graduate medical education funds.
We recommended that Michigan report a $955,060 financial adjustment, adhere to the payment
method in the approved State plan, and ensure that hospitals comply with reporting requirements
of the State plan.  The State did not agree with the financial adjustment, but did agree
with the procedural recommendations.